                                Office of Inspector General
                               Corporation for National and
                                        Community Service




     AUDITOF CORPORATION
                      FOR NATIONAL
       AND COMMUNITY
                   SERVICEFOSTER
       GRANDPARENTGRANTAWARDED
            TO THE CITY OF KANSAS
                                CITY

            OIG REPORTNUMBER
                           06- 24




                                               3i7JYdkAL &
                                               COMMUNITY
                                               SERVICE-




                       Prepared by:

               Conrad and Associates, L.L.P.
               2301 Dupont Drive, Suite 200
                 twine, California 92612




This report was Issued to Corporation management on March 20,2006. Under
the laws and regulations governing audit follow-up, the Corporation Is to make
final management decisions on the renort's findlnas and recommendations no
later than September 20,2006, and complete its cokective actions by March 20,
2007. Consequently, the reported findings do not necessarily represent the
final resolution of the Issues presented.
                                           c"$xf,""kAL       &
                                           COMMUNITY
                                           SERVICE=



                         Corporation for National and Community Service
                                       Audit Report 06-24

            Audit of Corporation for National and Community Service Grant Awarded
                                    to the City of Kansas City

OIG Summary
The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Conrad and Associates, L.L.P. (Conrad) to perform an incurred-cost audit
of the grant awarded to the City of Kansas City.
The grantee claimed costs of $634,667, of which the auditors questioned $14,044 as unallowable
grant costs. Overall, the auditors questioned approximately 2.2 percent of claimed grant costs.
A questioned cost is an alleged violation or provision of law, regulation, contract, grant, or
cooperative agreement, or other agreement or document governing the expenditure of funds; a
finding that, at the time of the audit, such cost is not supported by adequate documentation; or a
finding that the expenditure of funds for the intended purpose is unnecessary or unreasonable.
Costs questioned include volunteer support costs, volunteer stipends and other volunteer
expenses for incorrect classification of contributions, costs not applicable to the grant period and
missing documentation. The auditors also noted instances of noncompliance with provisions of
Federal laws, regulations and grant award provisions.

The City of Kansas City agrees with most of the audit findings and presented a preliminary
action plan to the Corporation. The final plan will be submitted during the audit resolution
period.

In accordance with our statutory responsibilities, we reviewed Conrad's report and related audit
documentation, interviewed their representatives, and performed other procedures, as we deemed
appropriate in the circumstances to provide reasonable assurance that the audit was performed in
accordance with generally accepted government auditing standards. Our review was not
intended to enable us to express, and we do not express, opinions on the Grantee's Schedule of
Award Costs, or conclusions on internal controls and on compliance with laws and regulations.
Conrad is responsible for the attached reports dated December 2,2005, and the conclusions
expressed therein. However, our review disclosed no instances where Conrad did not comply, in
all material respects, with generally accepted government auditing standards.

The Ofice of Inspector General provided officials of the City of Kansas City and the
Corporation with a draft of this report for their review and comment. Their responses are
included as Appendices A and B, respectively.

This report is a matter of public record, and its distribution is not limited.

                        1201 New York Avenue, N W Suite 830, Washington, DC 20525
                           202-606-9390 Hotline: 800-452-8210 www.cncsig.gov
                            Senior Corps    AmeriCorps   Learn and Serve America
                    Audit of Corporation for National and Community Service
                           Foster Grandparent Grant Awarded to the
                                 City of Kansas City. Missouri


                                              TABLE OF CONTENTS


REPORT STJMh44RY AND HIGHLIGHTS

   Executive Summary ........................................................................................

   Background.....................................................................................................

   Purpose and Scope of Audit ............................................................................

   Grant Programs Audited .................................................................................

   Costs Questioned.............................................................................................

   Compliance.....................................................................................................

   Internal Controls..............................................................................................



INDEPENDENT AUDITORS' REPORT...........................................................


FINANCIAL SCHEDULES

   Schedule of Award Costs......................................................................

   Notes to Schedule of Award Costs.............................................. .............. .
                                                                                                 .
   Schedule A - Schedule of Award and Questioned Costs................................
                Audit of Corporation for National and Community Service
                       Foster Grandparent Grant Awarded to the
                             City of Kansas City, Missouri



                            TABLE OF CONTENTS. (CONTINUED)



COMPLIANCE AND INTERNAL CONTROLS

  Report on Compliance and Other Matters and on Internal Controls Over
    Financial Reporting Based on An Audit of Financial Statements
    Performed in Accordance with Government Audit Standards.. ...................                       11

  Schedule of Internal Control Findings.. ........................................................... 13
  Schedule of Compliance Findings.. ................................................................. 20


RESPONSES TO REPORT

  Kansas City Foster Grandparent Program.........................................................   Appendix A

  Corporation for National and Community Service ..............................................
                                                                                             Appendix B
REPORT SUMMARY AND HIGHLIGHTS
ASSOCIATES, L.L.P.                                                                         2301 DUPONT DRIVE, SUITE 200
                                                                                                IRVINE. CALIFORNIA 92612
                                                                                                            (949) 474-2020
                                                                                                        Fax (949) 263-5520




 Ofice of Inspector General
 Corporation for National and Community Service


 This report is issued under an Office of Inspector General (OIG) engagement with Conrad and
 Associates, L.L.P. to audit the costs claimed by the City of Kansas City, (Kansas City) from
 January 1,2004, through June 30,2005, under the Grant Number 04SFWM0002 awarded by the
 Corporation for National and Community Service (Corporation). This report focuses on the
 audit of claimed costs, instances of noncompliance with Federal laws, applicable regulations or
 award conditions, and internal control weaknesses disclosed during the audit of the Kansas City
 Foster Grandparent Program.


                                            Executive Summarv

 As a result of our audit, we are questioning grant costs totaling $14,004. In addition, we are
 questioning some match costs claimed; however, the grant is not yet completed. The grant costs
 questioned are approximately 2.21 percent of the total $634,667 of costs claimed by Kansas City.
 A questioned cost is an alleged violation or provision of law, regulation, contract, grant, or
 cooperative agreement, or other agreement or document governing the expenditure of funds; a
 fmding that, at the time of the audit, such cost is not supported by adequate documentation; or a
 finding that the expenditure of funds for the intended purpose is unnecessary or unreasonable.
 Costs questioned include volunteer support costs, volunteer stipends and other volunteer
 expenses for incorrect classification of contributions, costs not applicable to the grant period and
 missing documentation. Details related to questioned costs are presented in the Independent
 Auditors' Report.


                                                 Background

 The Corporation, pursuant to the authority of the National Community Service Trust Act of
 1993, as amended, awards grants and cooperative agreements to grantees such as Kansas City
 and other entities to assist in the creation of full-time and part-time national and community
 service programs.

 The Kansas City Foster Grandparent Program is operated under the Neighborhood and
 Community Services Department of the City of Kansas City, Missouri. It provides opportunities
 for low-income persons, aged 60 or over, to provide supportive person-to-person services in
 health, education, welfare, or related settings, to help alleviate the physical, mental, or emotional
 problems of children having exceptional or special needs.



                                                    1
                     MEMBERS OF AlCPA AND CALlFORNl SOCIEPI OF CERTIFIED PUBLIC ACCOUNTANTS
          MEMBER OF AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS PRIVATE COMPANIES PRACTICE SECTION
                                 Pumose and Scope of Audit

Our audit covered the costs claimed under Corporation Grant Number 04SFWM0002 for the
grant period detailed on page 3.

The objectives of our audit were to determine whether:

           financial reports prepared by Kansas City presented fairly the financial results of the
           award;
           internal controls were adequate to safeguard Federal funds;
           Kansas City had adequate procedures and controls to ensure compliance with Federal
           laws, applicable regulations, award conditions, and that volunteer services were
           appropriate to the program;
           claimed costs were reported were documented and allowable in accordance with the
           award terms and conditions; and
           Kansas City had established adequate oversight of the program.

We performed the audit in accordance with auditing standards generally accepted in the United
States of America and standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States. Those standards require that
we plan and perform the audit to obtain reasonable assurance about whether the amounts claimed
against the award, as presented in the Schedule of Award Costs, are fiee of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the Schedule of Award Costs. An audit also includes assessing the accounting
principles used and significant estimates made by the auditee, as well as evaluating the overall
financial schedule presentation. Our audit included reviews of audit reports prepared by the
independent public accountants for Kansas City in accordance with the requirements of OMB
Circular A-1 33, Audits of States, Local Governments and Non-projt Organizations. We believe
our audit provides a reasonable basis for our opinion.

We performed our audit October 17, 2005, through December 2, 2005. The contents of this
report were disclosed to and discussed with Kansas City at an exit conference on January 17,
2006. In addition, we provided a draft of this report to Kansas City and to the Corporation for
comment on February 1, 2006, and received responses fiom both the Corporation and Kansas
City on March 6,2006 and March 7,2006, respectively. Their responses are included in their
entirety as appendices A and B, respectively.
                                   Grant Program Audited

Our audit of the Kansas City Foster Grandparent Program covered financial transactions,
compliance and internal controls testing of the following program award funded by the
Corporation:

      Program             Award Number            Award Period             Audit Period
 Foster Grandparent       04SFWM0002           01/01/04 - 12131/05      01/01/04 - 06130/05


Our audit of the costs claimed by Kansas City under the award disclosed the followings:
                                                                            Percentage of
                                                         Amount            ~ u d ~ e ~ k m e d
       Award Budget                                    $    919.926               -
       Drawdown within Audit Period                                                -
       Claimed Costs                                                           68.99 percent
       Questioned Grant Costs                                                   2.21 percent


                                       Costs Ouestioned

The following table summarizes the costs questioned:

                                                                   Questioned Amount
                                                                  Federal       Match
                       Descriptions                               Share          Costs
 Variance between detail stipend records and general
  ledger
 Volunteer station contributions incorrectly claimed as
  Federal share
 Volunteer travel expenses missing documentation
 Expenses not applicable to the grant period
 Volunteer support expenses missing documentation
                                   Total Costs Questioned:



We used judgmental sampling methodology to test the costs claimed. Based upon this sampling
plan, questioned costs in this report may not represent total costs that may have been questioned
had all expenditures been tested. We have made no attempt to project such costs to total
expenditures incurred, based on the relationship of costs tested to total costs. For a complete
discussion of these questioned costs, refer to the Independent Auditors' Report.
                                             Comeliance

Our audit disclosed the following instances of noncompliance with Federal laws, applicable
regulations and award conditions that were considered to be reportable conditions.

1. The grantee did not adequately undertake its responsibilities as follows:
         -   The grantee did not have formal procedures to maintain documentation or staff
             certification to support that the volunteer stations met the program criteria, and to
            review the status of volunteer stations to ensure that they continually met the program
             criteria.
         - The grantee did not properly develop and renegotiate the Memorandum of
            Understandings (MOUs) with volunteer stations in accordance with the program
            requirements.
         - The grantee did not adequately monitor the volunteer stations to ensure that they
             complied with all applicable laws and regulations, and that they satisfactorily fulfilled
            their responsibilities as stated in the MOU.
         - The grantee did not develop a plan for promoting senior service within the project
             service area for Project Year 2004.
         - The grantee did not adequately assess, an annual basis, the accomplishments and
            impacts of the project on the identified needs and problems of the client population in
            the community.
         - The grantee did not maintain the necessary staffing level for the program.
2.   The grantee did not have a well-established volunteer database and record maintenance
     system to adequately and accurately track program volunteers.
3.   Volunteer eligibility documentation and records were either missing or incomplete.
4.   Volunteer assignment plans and annual volunteer performance evaluations were either
     missing or not developed.
5.   There were inadequate procedures to ensure that program volunteers only serve eligible
     children.
6.   Program and financial reports were not submitted to the Corporation in a timely manner.


                                         Internal Controls

Our audit also disclosed the following reportable conditions with respect to internal controls.

1. Detail monthly volunteer stipend reports could not be reconciled to the general ledger.
2. Volunteer stipend and reimbursement worksheets did not contain appropriate approval
   signatures.
3. Contributions fiom volunteer stations were incorrectly claimed as Federal share.
4. Insufficient documentation was maintained for volunteer support expenses and volunteer
   reimbursements.
5. Match costs incurred in the previous period were recorded as current year contributions.
We believe none of the reportable conditions noted above represent a material weakness.'




1. A material weakness is a reportable condition in which the design or operation of one or more of the internal control
components does not reduce to a relatively low level the risk that errors or irregularities in amounts, which would be material to
the financial statements beiig audited, may occur and not be detected within a timely period by employees in the normal course
of performing their assigned functions.
                                                                                          2301 DUPONT DRIVE, SUITE 200
                                                                                               IRVINE, CALIFORNIA 92612
                                                                                                            (949) 474-2020
                                                                                                                             I
                                                                                                        Fax (949) 263-5520


Ofice of Inspector General
Corporation for National and Community Service

                               INDEPENDENT AUDITORS' REPORT

We have audited the costs incurred by the Kansas City Foster Grandparent Program, City of
Kansas City, Missouri (Kansas City) for the award number listed below. These costs, as
presented in the Schedule of Award Costs are the responsibility of Kansas City's management.
Our responsibility is to express an opinion on the Schedule of Award Costs based on our audit.

      Program                 Award Number                Award Period                  Audit Period
 Foster Grandparent           04SFWM0002               01/01/04 - 12131/05           01/01/04 - 06/30/05

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial schedules are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial schedules. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial schedule presentation. We believe our
audit provides a reasonable basis for our opinion.

In our opinion, except for the issues related to the $14,004 in questioned grant costs discussed
above, the Schedule of Award Costs referred to above present fairly, in all material respects, the
costs claimed for the period January 1, 2004 to June 30, 2005, in conformity with generally
accepted accounting standards in the United States of America.

In accordance with Governmental Auditing Standards, we have also issued a report dated
December 2,2005 on our consideration of Kansas City's intemal control over financial reporting
and on our tests of its compliance with certain provisions of laws, regulations, contracts, grant
agreements and other matters. The purpose of that report is to describe the scope of our testing
of internal control over financial reporting and compliance and the results of that testing, and not
to provide an opinion on the intemal control over financial reporting or on compliance. That
report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be considered in assessing the results of our audit.




                                                   6
                    MEMBERS OF AlCPA AhD CALlFORhlA SOCIETY OF CERTIF ED PLBL C ACC0,hTAhTS
         MEMBER OF AMERlCAh IhSTlTLTE OF CERTIF ED PUB-IC ACCOLhTAhTS PR VATE COUPAhlES PRACT CE SECTlOh
This report is intended for the information and use of the Office of Inspector General,
management of the Corporation for National and Community Service, Kansas City Foster
Grandparent Program, City of Kansas City, Missouri, and the US.Congress.




Conrad and Associates, L.L.P.
Irvine, California
December 2,2005
                   Corporation for National and Community Sewice
                      Foster Grandparent Grant Awarded to the
                             City of Kansas City, Missouri

                                Schedule of Award Costs

                            January 1,2004, to June 30,2005


                                       Approved         Claimed         Questioned
Award Number          Program           Budget           Costs            Costs
                    Foster
04SFWM0002          Grandparent        %919.926         %634.667            j 0 0 4


                            Notes to Schedule of Award Costs




 The accompanying Schedule of Award Costs includes amounts budgeted, claimed, and
 questioned under the Foster Grandparent grant awarded to Kansas City by the Corporation
 for the period fiom January 1,2004, to June 30,2005.


 Basis of Accounting

 The accompanying Schedule has been prepared to comply with the provisions of the grant
 agreements between the Corporation and Kansas City. The information presented in the
 Schedule has been prepared from the reports submitted by Kansas City to the Corporation.
 The basis of accounting used in preparation of these reports differs slightly from accounting
 principles generally accepted in the United States of America as follows:

     Emivment
     Equipment is charged to expense in the period during which it is purchased instead of
     being recognized as an asset and depreciated over its u s e l l life. As a result, the
     expenses reflected in the Schedule of Award Costs include the cost of equipment
     purchased during the period rather than a provision for depreciation. The equipment
     acquired is owned by Kansas City while used in the program for which it was purchased
     or in other future authorized programs. However, the Corporation has a reversionary
     interest in the equipment. Its disposition, as well as the ownership of any proceeds there
     from, is subject to Federal regulations.

     Inventon,
     Minor materials and supplies are charged to expense during the period of purchase.
                                                                                 Schedule A
                                                                                 Page 1 of 2
                     Corporation for National and Community Sewice
                        Foster Grandparent Grant Awarded to the
                               it) of Kansas City, Missouri
                          Schedule of Award and Questioned Costs
                              Award Number 04SFWM0002

                              January 1,2004, to June 30,2005


Reference

Approved Budget (Federal Funds)

Claimed Costs

Questioned Costs (Federal Share):
 Stipends                                                         6,738     Note 1
 Volunteer station contributions incorrectly charged as
 Federal share                                                    2,702     Note 1
 Volunteer travel                                                 4,564     Note 1
                                                             $   14.004

Questioned Match Costs                                       %    2.172     Note 2

-
Notes

1. We noted numerous exceptions made in the volunteer reimbursements and volunteer support
   expenses from the transactions selected for review. See Internal Control Finding Nos. 1, 3
   and 4 for W e r details.

                                                             Number of        Questioned
                         Exception                           Occurrences       Amount
    Variance between detail monthly stipend records and
     general ledger                                               1          $       6,738
    Volunteer station contributions incorrectly claimed as
     Federal share                                                7                  2,702
    Missing supporting documentation for volunteer
     travel expenses                                             118                  4.564
                                                                   Total     $       14.004
                                                                                       Schedule A
                                                                                       Page 2 of 2
                       Corporation for National and Community Service
                          Foster Grandparent Grant Awarded to the
                                 City of Kansas City, Missouri

                            Schedule of Award and Questioned Costs
                                Award Number 04SFWM0002

                                January 1,2004, to June 30,2005


2.   Kansas City incorrectly charged certain volunteer station contributions to the Federal share,
     instead of reporting the contributions as match costs. As a result, match costs were
     understated by $2,702. See Internal Control Finding No. 3 for further details.

     Kansas City recorded telephone expenses totaling $1,373 that had been incurred during the
     previous grant period, under the current grant period as match costs. See Internal Control
     Finding No. 5 for further details.

     In addition, Kansas City did not have adequate supporting documentation for certain
     volunteer support expenses, which resulted in questioned match costs of $3,501. See Internal
     Control Finding No. 4 for further details.

     The questioned match costs are summarized as follows:

                                                                                  Questioned
                                  Description                                      Amount
      Volunteer station contributions incorrectly charged as Federal
       share                                                                  $       (2,702)
      Match costs not applicable to the grant period                                    1,373
      Inadequate support for volunteer support expenses                                 3.501
                                              Total questioned match costs    $         2.172
                                                                           CERTIFIED PUBLIC ACCOUNTANTS                    1
                                                                                         2301 DUPONT DRIVE, SUITE 200
                                                                                              IRVINE, CALIFORNIA 92612     1
                                                                                                          (949) 474-2020
                                                                                                      Fax (949) 263-5520
                                                                                                                           I
Office of Inspector General
Corporation for National and Community Service

    REPORT ON COMPLIANCE AND OTHER MATTERS AND ON INTERNAL
     CONTROLS OVER FINANCIAL REPORTING BASED ON AN AUDIT OF
FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE WITH GOVERNMENT
                        AUDIT S T N A R D S

We have audited the Schedule of Award Costs that summarize the claimed costs of Kansas City
under the Corporation award listed below, and have issued our report thereon, dated December 2,
2005.

      Program                Award Number                Award Period                  Audit Period
 Foster Grandparent          04SFWM0002               01/01/04 - 12131/05           01/01/04 - 06/30/05

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States of America.

                                   Comvliance and Other Matters

As part of obtaining reasonable assurance about whether Kansas City's financial schedules are
free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts and grant agreements, noncompliance with which could have a direct
and material effect on the determination of financial statement amounts. However, providing an
opinion on compliance with those provisions was not an objective of our audit and, accordingly,
we do not express such an opinion. The results of our tests disclosed certain instances of
noncompliance or other matters that are required to be reported under Government Auditing
Standards. These instances are described in the Schedule of Compliance Findings section of this
report as Finding Nos. 1 through 6.

                           Internal Controls Over Financial Resorting

In planning and performing our audit, we considered Kansas City's internal controls over
financial reporting in order to determine our auditing procedures for the purpose of expressing
our opinion on the financial schedules and not to provide an opinion on the internal control over
financial reporting. However, we noted certain matters involving the internal controls over
financial reporting and its operation that we consider to be reportable conditions. Reportable
conditions involve matters coming to our attention relating to significant deficiencies in the
design or operation of the intemal controls over financial reporting, that, in our judgment, could
adversely affect Kansas City's ability to record, process, summarize, and report financial data


                                                 11
                    MEMBERS OF A CPA AkD CA. FORhlA SOCIETY OF CERTSIED PL B.IC ACCOLhTAhTS
         MEMBER OF .WER CAN hSTITUTE OF CERT FIE0 PLB. CACCOLhTAhTS PRIVATE COMPAh.ES PRACTICE SECTIOh
consistent with the assertions of management in the program statements. These reportable
conditions are described in the Schedule of Internal Control Findings section of this report as
Finding Nos. 1 through 5.

A material weakness is a reportable condition in which the design or operation of one or more of
the internal control components does not reduce, to a relatively low level, the risk that
misstatements caused by error of fraud in amounts that would be material in relation to the
project statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Our consideration of the
internal controls over financial reporting would not necessarily disclose all matters in the internal
controls that might be reportable conditions and, accordingly, would not necessarily disclose all
reportable conditions that are also considered to be material weaknesses. However, we do not
consider the reportable conditions noted above material weaknesses.

This report is intended for the information and use of the Office of Inspector General, as well as
the management of the Corporation, The Kansas City Foster Grandparent Program, City of
Kansas City, Missouri, and the US. Congress.




Conrad and Associates, L.L.P.
Irvine, California
December 2,2005
                      Corporation for National and Community Service
                         Foster Grandparent Grant Awarded to the
                                City of Kansas City, Missouri

                            Schedule of Internal Control Findings

                               January 1,2004, to June 30,2005


We found the following matters involving Kansas City's internal control over financial reporting
and its operation that we consider to be reportable conditions under standards established by the
American Institute of Certified Public Accountants.

Finding No. 1 - Unsupported Volunteer Stioends

Condition
From our volunteer stipend testing, we found a $6,738 variance between the total amount of
stipends paid per the grantee's monthly detail reports, $373,934, and the total amount of stipends
claimed and recorded in the general ledger, $380,672. The grantee was unable to provide an
explanation or supporting documentation to explain the discrepancy. Therefore, the variance of
$6,738 is questioned.

                                                    Questioned Costs (Federal Share)
                                               Project Year     Project
               Description                        2004         year2005           Total
 Variance between stipend detail reports
 and general ledger                             $     6,833

The Federal government's common rule for grant administration by state and local governments,
45 C.F.R. § 2541.200(b), requires the following:

    (2) Accounting records. Grantees and subgrantees must maintain records which
   adequately identify the source and application of funds provided for financially-
   assisted activities. These records must contain information pertaining to grant or
   subgrant awards and authorizations, obligations, unobligated balances, assets,
   liabilities, outlays or expenditures, and income.

   (3) Internal control. Effective control and accountability must be maintained for all
   grant and subgrant cash, real and personal property, and other assets.

   (6) Source documentation. Accounting records must be supported by such source
   documentation as canceled checks, paid bills, payrolls, time and attendance records,
   contract and sub-grant award documents, etc.
The condition was due to mistakes made by the grantee personnel. Without sufficient supporting
documentation, claimed expenses may be disallowed.

Recommendation
We recommend that the Corporation detennine the allowability of the costs questioned and
recover costs that are not allowable or allocable to the grant. We also recommend that the
Corporation instruct the grantee to reinforce its timekeeping policies and procedures to ensure
that volunteer stipend records are properly reconciled and maintained.

Kansas City's Res~onse
The grantee has submitted a preliminary action plan to the Corporation that will reinforce its
time keeping policies and procedures to ensure that volunteer stipend records are properly
reconciled and maintained.

Auditors' Comments
We recognize and concur with the actions being implemented by the grantee to reinforce its time
keeping policies and procedures. However, we still recommend the Corporation determine the
allowability of the costs questioned and recoup any costs deemed not allowable andlor allocable
to the grant.


find in^ No. 2 - Volunteer Stiaend and Reimbursement Worksheets Were Not Proaerlv
Approved by Suaervisors

Condition
We reviewed 450 volunteer transportation reimbursements transactions charged as Federal share
and found five instances where the volunteer reimbursement worksheet did not contain the
appropriate approval signature.

The Federal government's common rule for grant administration by state and local governments,
45 C.F.R. $2541.200@), requires the following:

   (3) Internal control. Effective control and accountability must be maintained for all
   grant and subgrant cash, real and personal property, and other assets. Grantees and
   subgrantees must adequately safeguard all such property and must assure that it is
   used solely for authorized purposes.

In addition, the Corporation's Foster Grandparent Program regulation, 45 C.F.R.$ 2552.25
requires the following:

   A sponsor shall:
   (g) Establish record keepinglreporting system in compliance with Corporation
   requirements that ensure quality of program and fiscal operation, facilitate timely and
   accurate submission of required reports and cooperate with Corporation evaluation
   and data collection efforts.

According to the grantee, volunteer stipend and reimbursement worksheets are faxed from the
volunteer stations to the grantee for payroll processing. In order to meet the deadline for payroll
processing, volunteer stipend and reimbursement worksheets are occasionally submitted to the
sponsor before they are approved and signed by the supervisors at the volunteer stations.
However, without proper review and approval, errors made on volunteer reimbursement
worksheets may not be detected and could result in overpayments.

Recommendation
We recommend that the Corporation instruct the grantee to reinforce its volunteer
reimbursements policies and procedures to ensure that they are properly reviewed, signed and
approved. The grantee should not process any volunteer stipend and reimbursement worksheets
without proper approval signatures.

Kansas Citv's Resvonse
The grantee has submitted a preliminary action plan to the Corporation that will reinforce its
volunteer reimbursement policy and procedures to ensure that volunteer stipend reimbursements
are properly reviewed, signed and approved.

Auditors' Comments
We recognize and concur with the actions implemented by the grantee to reinforce its time
keeping policies and procedures.


Finding No. 3   - Volunteer Station Contributions Were Incorrecth             Claimed As Federal
-
Share

Condition
The grantee incorrectly claimed volunteer station contributions for donated meals and
transportation as Federal share. As a result, a total amount of $2,702 claimed under the Federal
share is questioned.

                        Questioned Costs (Federal Share)
          Proiect Year 2004     Proiect Year 2005             Total



                        Questioned Costs (Match Costs)
         Project Year 2004     Project Year 2005              Total
          P          13 I l l \               /<01\      P        13   7n3\


The Federal government's common rule for grant administration by state and local governments,
45 C.F.R. 5 2541.200@), requires the following:

   (1) Financial reporting. Accurate, current, and complete disclosure of the financial
   results of financially assisted activities must be made in accordance with the financial
   reporting requirements of the grant or subgrant.

In addition, 45 C.F.R. 5 2541.200@), requires the following:

   (3) Internal control. Effective control and accountability must be maintained for all
   grant and subgrant cash, real and personal property, and other assets. Grantees and
   subgrantees must adequately safeguard all such property and must assure that it is
   used solely for authorized purposes.

The condition was due to miscommunication between the grantee's program and fiscal
personnel. As a result, costs claimed under the Federal share were overstated and match costs
reported on the Financial Status Reports were understated.

Recommendation
We recommend that the Corporation determine the allowability of the costs questioned and
recover costs that are not allowable or allocable to the grant. We also recommend that the
Corporation instruct the grantee to strengthen the communication between its program and fiscal
personnel to ensure that the nature of expenses and contributions are understood and are
correctly classified.

Kansas Citv's Resvonse
The grantee has submitted a preliminary action plan to the Corporation that will improve
communication between program staff and fiscal staff. A final plan will also be submitted to the
Corporation for review. The grantee will also create a grant module in its accounting system to
improve the tracking for the grantee's cash match and volunteer stations' in-kind match.

Auditors' Comments
We recognize and concur with the actions being implemented by the grantee to improve the
communication between its program and fiscal staff, as well as the tracking of match costs.
However, we still recommend the Corporation determine the allowability of the costs questioned
and recoup any costs deemed not allowable andor allocable to the grant.


Finding No. 4 - Insufficient Documentation for Volunteer S u ~ ~ o rExpenses
                                                                     t       and
Reimbursements

Condition
We reviewed 450 volunteer transportation transactions charged as Federal share and found 118
instances where there was insufficient documentation. As a result, volunteer expenses in a total
amount of $4,564 are questioned.
We also reviewed 25 transactions charged as match costs and found three instances where there
was insufficient documentation to support that the expense was incurred during the grant period
and that the amount reported was reasonable and allowable. As a result, match costs totaling
$3,501 is questioned.

                       Questioned Costs (Federal Share)
         Project Year 2004     Project Year 2005               Total
          u                                               u
                        Questioned Costs (Match Costs)
          h           -
         Project,Year 2004
                          "?A
                               Project Year 2005
                                                 ".A      ",
                                                               Total
                                                                    ..   -A.




The Federal government's common rule for grant administration by state and local governments,
45 C.F.R. § 2541.200(b), requires the following:

   (2) Accounting records. Grantees and subgrantees must maintain records which
   adequately identify the source and application of funds provided for financially-
   assisted activities. These records must contain information pertainiig to grant or
   subgrant awards and authorizations, obligations, unobligated balances, assets,
   liabilities, outlays or expenditures, and income.

   (6) Source documentation. Accounting records must be supported by such source
   documentation as canceled checks, paid bills, payrolls, time and attendance records,
   contract and sub-grant award documents, etc.

Furthermore, 45 C.F.R. 8 2541.240, requires the following:

   (a) Basic rule; costs and contributions acceptable. With the qualifications and
   exceptions listed in paragraph (b) of this section, a matching or cost sharing
   requirement may be satisfied by either or both of the following:
   (1) Allowable costs incurred by the grantee, subgrantee or a cost-type contractor
   under the assistance agreement. This includes allowable costs borne by non-Federal
   grants or by other cash donations from non-Federal third parties.
   (2) The value of third party in-kind contributions applicable to the period to which the
   cost sharing or matching requirements applies.

According to the grantee, for certain types of transportation, volunteers are only required to
submit one daily receipt to substantiate the costs for the entire month, since the daily rate is the
same. Apart from this, some of the supporting documentation could not be located due to staff
turnover and a shortage of program staff. However, without sufficient supporting
documentation, expenses claimed may be disallowed or may not be accepted as part of the
grantee share of program operating costs.
Recommendation
We recommend that the Corporation determine the allowability of the costs questioned and
recover costs that are not allowable or allocable to the grant. We also recommend that the
Corporation instruct the grantee to implement the following corrective actions:

           Obtain sufficient resources, including program staff, to enhance the grantee's record
           maintenance system.
           Maintain sufficient documentation, such as receipts or service logs from the
           transportation providers, to support all volunteer travel expense reimbursements.

Kansas Citv's Res~onse
The grantee has requested technical assistance on acceptable methods for documenting travel
expenses and submitted a preliminary action plan to the Corporation that will enhance its record
maintenance system. The grantee also submitted recommendations to its human resources
department regarding the hiring of the vacant program position.

Auditors' Comments
We recognize and concur with the actions being implemented by the grantee to enhance its
record maintenance system, as well as the hiring of program staff. However, we still recommend
the Corporation determine the allowability of the costs questioned and recoup any costs deemed
not allowable andor allocable to the grant. The Corporation should also review the method used
to document travel expenses for appropriate evidence of reimbursements.


Finding No. 5 -Match Costs Are Not A ~ ~ l i c a bto
                                                   l ethe Grant Period

Condition
We reviewed 25 transactions reported as match costs and noted ten instances in Program Year
2004 where telephone expenses claimed were actually incurred in the previous grant period.
Since these expenses were not incurred in the current grant period, match costs totaling $1,373
are questioned. ,

The Federal government's common rule for grant administration by state and local governments,
45 C.F.R. § 2541.240(a), requires the following:

   (a) Basic rule; costs and contributions acceptable. With the qualifications and
   exceptions listed in paragraph @) of this section, a matching or cost sharing
   requirement may be satisfied by either or both of the following:

   (1) Allowable costs incurred by the grantee, subgrantee or a cost-type contractor
   under the assistance agreement. This includes allowable costs borne by non-Federal
   grants or by other cash donations from non-Federal third parties.

   (2) The value of third party in-kind contributions applicable to the period to which the
   cost sharing or matching requirements applies.
In addition, 45 C.F.R. 5 2541.200(b) requires the following:

   (1) Financial reporting. Accurate, current, and complete disclosure of the financial
   results of financially assisted activities must be made in accordance with the financial
   reporting requirements of the grant or subgrant.

According to the grantee, different departments of the Kansas City government processed
telephone expenses and the documentation was not always provided in a timely manner. As a
result, expenses not incurred within the grant period were charged as grantee share of program
operating costs.

Recommendation
                                                 -
We recommend that the Cornoration instruct the grantee   to develop and implement policies and
procedures to ensure that brogram related expenses are processed timely, accurately and
correctly classified and recorded. We also recommend that the Corporation determine the
allowability of the costs questioned and recover costs that are not allowable or allocable to the
grant.

Kansas City's Resuonse
The grantee has submitted a preliminary action plan to the Corporation that will develop and
implement policies and procedures to ensure that program related expenses are processed timely,
accurately and correctly classified and recorded. The grantee will also create a grant module in
its accounting system to improve the tracking for the grantee's cash match.

Auditors' Comment
We recognize and concur with the changes being implemented by the grantee to enhance its
record maintenance system, as well as the hiring of program staff. However, we still recommend      '

the Corporation determine the allowability of the costs questioned and recoup any costs deemed
not allowable andlor allocable to the grant.
                      Corporation for National and Community Service
                         Foster Grandparent Grant Awarded to the
                                City of Kansas City, Missouri

                               Schedule of Compliance Findings

                               January 1,2004 to June 30,2005


We noted the following matters involving Kansas City's noncompliance with certain provisions
of laws, regulations, contracts and the grant agreement that are required to be reported under
Government Auditing Standards.

               -
Finding No. 1 Inadequate Fulfiment of Program and Administrative Resuonsibilities

Condition
The grantee did not adequately fulfill its program and administrative responsibilities in the
following areas:

A. The grantee did not manage its volunteer stations as required by the Code of Federal
Regulations.
i. There were no formal procedures to maintain documentation or staff certification to support
that the volunteer stations met the program criteria of being a public or private organization or an
eligible proprietary health care agency, capable of serving as a volunteer station for the
placement of Foster Grandparents.
ii. There were no formal procedures to periodically review the status of volunteer stations to
ensure that they continually met the program criteria.
iii. We selected and reviewed the Memorandum of Understanding (MOU) for 22 out of a total of
44 volunteer stations and found:
     - 18 instances where the MOU was not developed prior to volunteer placement.
     - Seven instances where the MOU did not specify the mutual responsibilities of the station
        and the sponsor, because the second and third page of the MOU was missing.
     - 20 instances where the MOU was not renegotiated at least every three years.
   -    All MOUs did not contain the required language that the volunteer station would comply
        with the relevant non-discrimination policy.
iv. The grantee did not adequately review volunteer placements regularly to ensure that clients
were eligible to be served.
v. The grantee did not adequately monitor the volunteer stations to ensure that they complied
with all applicable civil rights laws and regulations, and that they satisfactorily fulfilled their
responsibilities as stated in the MOU.

B. The grantee did,not develop a plan for promoting senior service within the project service area
for Project Year 2004.
C. The grantee did not adequately annually assess the accomplishments and impact of the project
on the identified needs and problems of the client population in the community.

D. The grantee did not maintain the necessary staffing level for the program. The position of
field coordinator has been vacant since June 2004.

The Corporation's Foster Grandparent Program regulation, 45 C.F.R.          5 2552.23, requires the
following:

   A sponsor shall:

   (c) Develop and manage a system of volunteer stations by:
   (1) Ensuring that a volunteer stations is a public or non-profit private organization,
   whether secular or faith-based, or an eligible proprietary health care agency, capable
   of sewing as a volunteer station for the placement of Foster Grandparents;
   (2) Ensuring that the placement of Foster Grandparents will be governed by a
   Memorandum of Understanding:
   (i) That is negotiated prior to placement;
   (ii) That specifies the mutual responsibilities of the station and sponsor;
   (iii) That is renegotiated at least every three years; and
   (iv) That states the station assures it will not discriminate against Foster Grandparents
   or in the operation of its program on the basis of race; color; national origin, including
   individuals with limited English proficiency; sex; age; political affiliation; religion; or
   on the basis of disability, if the participant or member is a qualified individual with a
   disability; and
   (3) Reviewing volunteer placements regularly to ensure that clients are eligible to be
   served.

   (i) Develop, and annually update, a plan for promoting senior service within the
   project's sewice area
   (j) Annually assess the accomplishments and impact of the project on the identified
   needs and problems of the client population in the community."

In addition, 45 C.F.R. § 2552.25 requires that:

   A sponsor shall:

   (b) Provide levels of staffing and resources appropriate to accomplish the purposes of
   the project and carry out its project management responsibilities.

   (g) Establish record keepinglreporting system in compliance with Corporation
   requirements that ensure quality of program and fiscal operation, facilitate timely and
   accurate submission of required reports and cooperate with Corporation evaluation
   and data collection efforts.
   (h) Comply with and ensure that all volunteer stations comply with all applicable civil
   rights laws and regulations, including providing reasonable accommodation to
   qualified individuals with disabilities.

Because the grantee experienced staff shortages, it was not able to undertake all of its program
and administrative responsibilities. As a result, program goals and objectives may not have been
satisfactorily achieved.

Recommendation:
We recommend that the Corporation instruct the grantee to implement the following corrective
actions:

       A.       Fill the Field Coordinator position.

       B.       Develop and implement formal procedures to:

            document and periodically review the organization status of volunteer stations to
            ensure that the volunteer stations meet the program requirements.
            ensure that Memorandums of Understanding are developed properly and in a timely
            manner and renegotiated with each volunteer station.
            review volunteer placements regularly, and to monitor the performance and
            compliance of volunteer stations on a regular basis.
            ensure that an annual plan for program promotion is developed properly and in a
            timely manner, and that accomplishments and impacts of the program are adequately
            assessed annually.

Kansas Citv's Res~onse
The grantee has submitted a preliminary action plan to the Corporation to implement the above
recommendations. A final plan will also be submitted to the Corporation for review.

Auditors' Comments
We recognize and concur with the actions being implemented by the grantee to satisfactorily
undertake its program and administrative responsibilities. The Corporation, through the audit
resolution process, should follow-up to be sure the grantee is hlfilling its program and
administrative responsibilities.
Finding No. 2 - Lack of a Well-Established Volunteer Database and Record Maintenance
Svstem

Condition
We reviewed the volunteer records provided by the grantee and noted incomplete and erroneous
volunteer information, such as emolhent dates and &it dates. In addition, the grantee does not
have formal procedures to record other volunteer information, such as placement dates, changes
in volunteer stations assigned, exit dates and reasons for exit, cumulative service hours and
stipend earned, etc.

The Corporation's Foster Grandparent Program regulation, 45 C.F.R. § 2552.25, requires the
following:

A sponsor shall:

         (g) Establish record keepingheporting system in compliance with Corporation
         requirements that ensure quality of program and fiscal operation, facilitate timely
         and accurate submission of required reports and cooperate with Corporation
         evaluation and data collection efforts.

Due to shortage of staff, the grantee did not have sufficient resources to develop a well-
established volunteer database and record maintenance system to adequately and accurately track
information on program volunteers. Without such a system, the grantee may not be able to
accurately report its operational results.

Recommendation
We recommend that the Corporation instruct the grantee to implement the following corrective
actions:

         0   Obtain sufficient technical support from its internal information and technology
             department to enhance the grantee's volunteer database and record maintenance
             system.
             Develop and implement formal policy and procedures to ensure that volunteer
             information is adequately and accurately documented and maintained.


Kansas City's Resoonse
     -
The mantee is in the Drocess of working with its information and technology department to
develop a database &em that will eniance its management of volunteer-data-and record
management system. A final action plan will also be submitted to the Corporation for review.

Auditors' Comments
We recognize and concur with the actions being implemented by the grantee to enhance its
voluntee~informationmaintenance and management system.
Finding No. 3 -Mising or Incomulete Volunteer Eligibility Documentation and Records

Condition
We reviewed the eligibility documentation and records of 62 out of a total of 124 volunteers, and
noted the following:
   -   Ten instances where the latest annual physical examination records could not be located
       in the volunteer file to support that the volunteer is physically capable to serve in the
       program.
   -   Sixty-one instances where the volunteer file did not contain an agreement from the
       volunteer stating that he or she agreed to abide by all requirements set forth in the
       program provisions.
   -   Fifty-seven instances where the annual review of volunteer's income eligibility was
       conducted based on income projections, instead of actual income for the previous 12
       months. For the remaining five volunteers, the annual income review was not due at the
       time of our audit.

The Corporation's Foster Grandparent Program regulation, 45 C.F.R. § 2552.41, requires the
following:

(a) To be a Foster Grandparent, an individual must:

   (1) Be 60 years of age or older;
   (2) Be determined by a physical examination to be capable, with or without
       reasonable accommodation, of serving children with exceptional or special needs
       without detriment to either himself/herself or the children served;
   (3) Agree to abide by all requirements as set forth in this part; and
   (4) In order to receive a stipend, have an income that is within the income eligibility
       guidelines specified in this subpart D.

In addition, 45 C.F.R.   5 2552.42 requires the following:
   (b) For applicants to become stipended Foster Grandparents, annual income is
   projected for the following 12 months, based on income at the time of application. For
   serving stipended Foster Grandparents, annual income is counted for the past 12
   months.

Finally, 45 C.F.R. § 2552.45 requires the following:

   (d) Physical examination. Foster Grandparents are provided by a physical
   examination prior to assignment and annually thereafter to ensure that they will be
   able to provide supportive service without injury to themselves or the children served.

The condition is primarily due to shortage and turnover of grantee's program staff. In addition,
the grantee misinterpreted the requirements of the program provisions. As a result, the grantee
may enroll ineligible volunteers and incur unallowable costs.
Recommendation
We recommend that the Corporation instruct the grantee to implement the following corrective
actions:

           Obtain sufficient resources, including program staff, to enhance the grantee's record
           maintenance system.
           Develop and implement formal policy and procedures to ensure that volunteer records
           are properly documented and maintained.
           Review program provisions regarding volunteer income eligibility, as well as develop
           procedures to ensure that annual review of volunteer income eligibility is properly
           conducted in accordance with the program provisions.

Kansas Citv's Res~onse
The grantee has submitted a preliminary action plan to implement the above recommendations.
A final plan will also be submitted to the Corporation for review.

Auditors' Comments
We recognize and concur with the actions being implemented by the grantee to enhance its
record maintenance system, and to ensure that volunteer income eligibility is properly conducted.


Finding No. 4 -Volunteer Assimment Plans and Annual Performance Evaluations Are Not
Pro~erlyDevelo~ed

Condition
We reviewed the placement and assignment documentation and records of 62 volunteers out of a
total of 124 volunteers, and noted the followings:
   -   Fifty-three instances where an annual evaluation on the volunteer's performance was not
       performed. For the remaining nine volunteers, annual performance evaluations were not
       due at the time of our audit.
   -   Fifty-eight instances where the volunteer assignment plans could not be located in the
       files. For the remaining four volunteers, an assignment plan was not necessary because
       the volunteers had never been placed at any volunteer stations.

We also reviewed the sample volunteer assignment plan contained in the grantee's volunteer
handbook and noted that the plan did not include the following components as required:
   -   Signatures to indicate the sponsor's approval and the volunteer's acceptance of the plan.
   -   The expected outcomes of the child served.
   -   The period of time each child should receive services.

We also interviewed five volunteers regarding their assignments. All volunteers interviewed
stated that they served a group of children, assigned by volunteer station personnel, during their
service hours, instead of having a one-on-one, person-to-person relationship with each child
served. In addition, these volunteers were not aware of the requirement that they should have a
volunteer assignment plan for each child they served and that they should only serve the
child(ren) identified in the volunteer assignment plan. Also, these volunteers were not aware of
the requirement that they should have received a performance evaluation on an annual basis.

The Corporation's Foster Grandparent Program regulation, 45 C.F.R.       5 2552.23, requires the
following:

A sponsor shall:

   (0 Provide Foster Grandparents with assignments that show direct and demonstrable
   benefits to the children and the community served, the Foster Grandparents, and the
   volunteer stations.

   (h) Conduct an annual appraisal of volunteers' performance and annual review of
   their income eligibility.

In addition, 45 C.F.R. 5 2552.62 requires the following:

   A volunteer station shall undertake the following responsibilities in support of Foster
   Grandparent volunteers:

   (a) Develop volunteer assignments that meet the requirements specified in Section
   2552.71 through 2552.72 and regularly assess those assignments for continued
   appropriateness.

   (c) Develop a written volunteer assignment plan for each child that identifies the role
   and activities of the Foster Grandparent and expected outcomes for the child served.

   (g) Keep records and prepare reports required by the sponsor.

Moreover, 45 C.F.R. 5 2552.71 requires that:

   Foster Grandparent assignments shall:

   (a) Provide for Foster Grandparents to give direct services to one or more eligible
   children. Foster Grandparents cannot be assigned to roles such as teacher's aides,
   group leaders or other similar positions that would detract from the person-to-person
   relationship.

   @) Result in person-to-person supportive relationships with each child served.

Finally, 45 C.F.R. § 2552.72, requires that:

   (a) All Foster Grandparents shall receive a written volunteer assignment plan
   developed by the volunteer station that:
   (1) Is approved by the sponsor and accepted by the Foster Grandparent;
   (2) Identifies the individual child(ren) to be served;
   (3) Identifies the role and activities of the Foster Grandparent and expected outcomes
   for the child;
   (4) Addresses the period of time each child receive such services; and
   (5) Is used to review the status of the Foster Grandparent's services in working with
   the assigned child, as well as the impact of the assignment on the child's
   development.

Due to shortage of staff, the grantee was unable to adequately review volunteer placements,
assignments and performance. As a result, the volunteers may not be serving the targeted clients
in the manner as required by the program provisions. In addition, due to a lack of volunteer
performance evaluations, both the grantee and the volunteers may not be able to monitor and
improve the quality of services provided.

Recommendation
We recommend that the Corporation instruct the grantee to implement the following corrective
actions:

          Maintain a sufficient staffiig level to fulfill its program responsibilities.
          Develop and implement policies and procedures to ensure that volunteer placements,
          assignments and performance are properly conducted and reviewed in accordance
          with the program requirements.

Kansas Citv's Resvonse
The grantee has submitted a preliminary action plan to the Corporation that will develop and
implement policy and procedures to ensure that volunteer placement, assignments and
performance review are properly conducted and reviewed, as well as to maintain a sufficient
staffiig level. The grantee is in the process of setting up trainiigs for the program volunteers
and the volunteer stations regarding the requirements on volunteer placement, assignments and
performance review. The grantee is also developing schedules for volunteer performance
reviews and volunteer station on-site monitoring. The final plan will be submitted to the
Corporation for review.

Auditors' Comments
We recognize and,concur with the actions implemented by the grantee to ensure that volunteer
placement, assignments and performance are properly conducted and reviewed. The Corporation
should follow-up to ensure full implementation of the corrective action plan.

               -
Findiw No. 5 Inadeauate Procedures to Review Eligibilitv of Clients Served

Condition
The grantee did not ensure that program volunteers only served eligible children. The grantee
relied on the volunteer stations to select eligjble children to be served by the volunteers.
However, the grantee did not maintain any documentation regarding the kligibility of the
children sewed. In addition, the volunteer stations were not required to provide or maintain any
documentation or certifications to show that the volunteers were assigned to serve eligible
children.

The grantee's field coordinator was assigned to review the eligibility of the children being served
by the volunteers during volunteer station site visits. However, the field coordinator position had
been vacant since June 2004 and there was no other staff member assigned to perform this duty.

We also interviewed five volunteers regarding their volunteer assignments. All volunteers
interviewed stated that they served a group of children, assigned by volunteer station personnel,
and that some of the children served by them did not appear to have exceptional or special needs.
In addition, these volunteers were not aware of the requirement that they should only serve
children with exceptional or special needs, and that they should only serve the child(ren)
identified in the volunteer assignment plan.

The Corporation's Foster Grandparent Program regulation, 45 C.F.R. § 2552.12, requires the
following:

    ( f ) Children having exceptional needs. Children who are developmentally disabled,
   such as those who are autistic, have cerebral palsy or epilepsy, are visually impaired,
   speech impaired, hearing impaired, orthopedically impaired, are emotionally
   disturbed or have a language disorder, specific learning disability, have multiple
   disabilities, other significant health impairment or have literacy needs. Existence of a
   child's exceptional need shall be verified by an appropriate professional, such as a
   physician, psychiatrist, psychologist, registered nurse or licensed practical nurse,
   speech therapist or educator before a Foster Grandparent is assigned to the child.

   (g) Children with special needs. Children who are abused or neglected; in need of
   foster care; adjudicated youth, homeless youths; teen-age parents; and children in
   need of protective intervention in their homes. Existence of a child's special need
   shall be verified by an appropriate professional before a Foster Grandparent is
   assigned to the child.

In addition, 45 C.F.R. § 2552.23 requires the following:
    A sponsor shall:

   (c) Develop and manage a system of volunteer stations by:

   (3) Reviewing volunteer placements regularly to ensure that clients are eligible to be
   served.

The following provisions also apply:

45 C.F.R. § 2552.25:

   A sponsor shall:
   (g) Establish record keepinglreporting system in compliance with Corporation
   requirements that ensure quality of program and fiscal operation, facilitate timely and
   accurate submission of required reports and cooperate with Corporation evaluation
   and data collection efforts.

45 C.F.R. § 2552.62:

   A volunteer station shall undertake the following responsibilities in support of Foster
   Grandparent volunteers:

   (b) Select eligible children for assigned volunteers

   (g) Keep records and prepare reports required by the sponsor.

45 C.F.R. § 2552.81:

   Foster Grandparents serve only children and youth with special and exceptional needs
   who are less than 21 years of age.

Due to shortage of staff, the grantee was unable to adequately review volunteer placements,
assignments and the eligibility of clients served. As a result, the volunteers may be serving
ineligible children. In addition, other children with truly special needs may be denied program
services.

Recommendation
     A.     We recommend that the Corporation clarify the requirements in the FGP
     Handbook that program volunteers only serve eligible children.

       B.     We also recommend that the Corporation instruct the grantee to implement the
       following corrective actions:

            Develop and implement policies and procedures to require volunteer stations to
            provide certifications to the grantee to show that volunteers only serve eligible
            children.
            Maintain a sufficient staffing    level to conduct periodic site monitoring visits at
            volunteer stations to ensure that volunteers serve only children who meet the program
            requirements.

Kansas City's Resvonse
The grantee has submitted a preliminary action plan to the Corporation that will develop and
implement procedures which require volunteer stations to provide certifications to the grantee to
assure that volunteers only serve eligible children. The grantee has also submitted a request to
its human resources department to fill the vacant program position.

Auditors' Comments
We recognize and concur with the actions being implemented by the grantee to ensure that
volunteers only serve eligible children. The Corporation should follow-up with Kansas City to
be sure that the action plan is fully implemented and effective.


              -
Finding No. 6 Pimopramand Financial R e ~ o r t Are
                                                s Not Submitted Timelv

Condition
The grantee did not submit the following reports in a timely manner, as required by the
Corporation.

    Reporting Period I Submission Date        I    Due Date     I   No. of Days Late
  Financial Status Revort
   01/01/04 - 06/30/04    10/07/04                 08/01/04               67
   07/01/04 - 1213 1/04   02/14/05                 02/01/05               13
   01/01/05 - 06130105    09/29/05                 08/01/05               59




  Federal Cash Transaction Revort
   04/01/04 - 06/30/04        09/27/04             07/15/04               74
   07/01/04 - 09130104        12/23/04             10/15/04               69
   10/01/04 - 1.2131/04       02/07/05             01/15/05               23
   01/01/05 - 03/31/05     Not submitted           04/15/05              N/A
   04/01/05 - 06/30/05     Not submitted           07/15/05              N/A

In addition, we reviewed the Project Progress Reports for the reporting periods ended 06/30/04,
12/31/04 and 06/30/05, and noted that these reports excluded parts of the program operation
results.

The Foster Grandparent and Senior Companion Program, Terms and Conditions, specifies that
the Standard Form 269, Financial Status Report (FSR), must be submitted by August 1 for the
period covering January 1 to June 30, and by February 1 for the period covering July 1 to
December 3 1.

The Foster Grandparent Program Operations Handbook, April 2000, Chapter 11, Reports and
Recordkeeping, Section 50, Reports also requires that Project Progress Reports (PPRs) are due
no later than 30 days after the end of the reporting period.

Furthermore, the Corporation's Foster Grandparent Program regulation, 45 C.F.R. § 2552.25
requires the following:

   A sponsor shall (g) establish record keepinglreporting systems in compliance with
   Corporation requirements that ensure quality of program and fiscal operations,
   facilitate timely and accurate submission of required reports and cooperate with
   Corporation evaluation and data collection efforts.

Due to the shortage of staff, the grantee did not have sufficient resources to gather the necessary
infomation in a timely manner to complete and submit the required program and financial
reports. As a result, the Corporation may not be able to receive up-to-date information to
monitor program operations and to evaluate program results.

Recommendation
We recommend that the Corporation instruct the grantee to maintain sufficient staffing to fulfill
its program responsibilities.

Kansas City's Res~onse
The grantee has submitted a preliminary action plan that will develop and implement policy and
procedures to ensure that reports are submitted in a timely manner, and to establish back up plans
and assignment delegation processes. The grantee has also submitted a request to its human
resources department to fill the vacant program position.

Auditors' Comments
We recognize and concur with the actions being implemented by the grantee to ensure that
program and financial reports related to the program are submitted to the Corporation in a timely
manner.
           Appendix A



Responses of the City of Kansas City
MRR. 7.2006     4:00PM       LMPFC


                               Neighborhaad and Community Services Department

                               Robert J. Mohart Multi-purpose FOCUS Center


                               3200 Wayne
                               Kansas City, MMouri 64.1092096

    March 7,2006


    Carol Bates, Acting InspectorGeneral
    Corporation for National and Community Servioe
    1201 New York Avenue, NW Suite 830
    Washington, DC 20525

    Subject Management Response to Audii Report OIG Number 0524

    Dear Ms. Bates:

    Enclosed is the City of Kansas Ci Missouri's response to the Foster Grandparent audit completed by
    Conrad and Associates. L.L.P. under Award No. 04SFWM00002. !J&d of Januaw 1.2004 throunh June


    The City of Kansas City presented a preliminary action plan to the Corporation for National and
    Community staff on February 21,2006. A final plan will be submitted to the Corporation for consideration
    by no later than March 10,2006.

    Please feel free to contact me if you have questions at (816) 7844500 t you have questions.




    ~acquel~nR. Powell, Division!Manager
    Human Services Division
    Neighborhood and Community Services

    Cc:     Lester Washingtan, Director of Neighborhood and Community Services
            Robyn Kendrick, Exer;utive Team Liaison, Public Safely
            Robin Flaherty, Financial Analyst
            Brenda Lax, Program Manager
            Bill Dillon, CNCS
            Gordon Ho, Conrad qnd Associates




                                                             03/07/2008    TUE 18:58     [TX/RX NO 53861
MAR. 7.2006     4:00PM        LMPFC




    Schedule of Internal Control Findings:

    Findlng #I- UnsupportedVolunteer Stipends $6,738 variance between total amount of stipends paid per
    grantee's monthly detail reports ($373,934) and total stipends daimd and recorded in the general ledger
    ($380,672)
    Kansas Citv's Respbnse! The C i i agrees with this finding. The City submmed a preliminary action plan to
    the Corporation on February 21,2006 fiat will reinforce our timekeeping policies and procedures to ensure
    that volunteer stipend records are properly reconciled and maintained. The final plan will be submitted for
    review by March 10,2006.

    Finding XZ-Volunteer     Stipend and Reimbursement Worksheets Were Not Properly Appmved by
    Supervisors:

   Kansas W s Resuonse: The Ci agrees with this finding. The City submitted a preliminary action plan to
   the Corporation on February 21, 2006 that will reinforce our volunteer reimbursement policy and
   procedures to ensure that they are properly revlewed, signed and approved, Stipends will not be
   processed for reimbursement without proper approval signatures. The final plan will be submitted for
   review by March 10,2006,

    Flnding #&Volunteer     Statiov Contributions Were lncamtly Claimed as Federal Share:

    Kansas CWs Resmnse: The C i i agrees with this finding. The Ci submitted a preliminary action plan to
    the Corporation on February 21, 2006 that wil improve communication between program staff and fiscal
    staff. The final plan will be submitted for review by March 10, 2006. With the grant being entered in the
    gtWtS module of Peoplesaff, we Wli have a better tracking system for grant expenses and the City's cash
    match and the volunteer station's in-Mnd match.

    Finding Wnsufficient Documentation for Volunteer Support Expenses and Reimbursements:

   Kansas CitVs Rwom:The Ci agrees wiih this finding. The City submitted a preliminary action plan to
   the Corporation on February 21, 2006 will maintain sufficient documentation of emndiures such as
   receipts and1 sewice logs for volunteer travel expenditures, Recommendalions fo; the hire of vacant
   pasltions has been submitted the Human Resources Department The final plan will be submitted for
   review by March 10, 2    W and requested technical assistance guidance an acceptable method for
   documenting travel expenses fmrn comparably sized programs. The City has also pmpased the use of .
   vendor reservation logs as potential corroboration of expenses rdiected on the volunteer worksheet as a
   plausible method of documentation.

    Findlng M a t c h Ccsts Are Not Applicable to the Grant Period:

    Kansas W s R ~ s D o ~The s ~ :M y agrees with this finding. The City submitted a preliminary action plan to
    the C~rporationon February 21, 2006 that will implement policies and procedures to ensure that program
    related expenses are processed timely, accurately and correctly classified and recorded. The final plan will
    be submitted for review by March 10,2006. Wi the grant being tracked in the grant module of Peoplesoft
    the Cis cash match will have its own activity to track it and make sure costs are for the correci period.
    The actual inkind from the volunteer stations will be tracked in Excell.
MRR. 7.2006      4:00PM       LMPFC




   Schedule of Compliance Findings:

   Finding #I--Inadequate    Fulfillment of Program and Administrative Responsibilities:

   Kansas CWs Resmnse: The City agrees with this finding. The City submitted a preliminary action p l n to
   the Corporation on Febnray 21, 2006 to implement prmdures for a.) documenting and periodically
   reviewing each organizations status ta ensure that the volunteer station meets program requirements; b)
   ensure that Memorandums of Understanding are developed properly and in a timely manner and
   renegotiated with each volunteer stations; c) review volunteer replacement on a regular schedule, and d)
   ensure that annual plan for program promotion is developed properly and in a timely manner, and that
   accomplishments and impactsof the program are adequately assessed annually. The City has submitted
   recommendations for hiring of the w a n t positions to the Human Resource Department. The final plan will
   be submitted for review by March 10,2006.

   Finding #2-Lack of a Well-Established Volunteer Database and Record Maintenance System

   Kansas CWs Response: The City agrees with this findirlg and is in the process of working with our
   Information and Technology Department to develop a database system that will enhance our management
   of volunteer data and record management system. The City submitted a preliminary action plan to the
   Corporation on February 21,2006. The final plan will be submitted for review by March 10,2006.

   Finding #%Missing or IncompleteVolunteer Eligibility Documentation and Records:

   Kansas CiNs Resmnse: The City agrees with this finding. The City submitted a preliminary action plan to
   the Corporation on February 21,2006 to implement procedures for a,) developing and implementing formal
   policy and procedures to ensure that volunteer records are properly documented and maintained; b)
   reviewing program provisions regarding volunteer income eligibility, as well as develop procedures to
   ensure that annual review of volunteer income eligibility is properly conducted in accordance with the
   program provisions, and c) obtaining sufficient resources, including prcgram staff, to enhance the our
   record maintenance system. The final plan wil be submitted for review by March 10,2006.

   Flndlng #&Volunteer Assignment Plans and Annual Perforrnqnce Evaluations Are Not Properly
   Developed:

   Kansas CiNs Resmnse: The Ci agrees with this finding. The City submitted a preliminary action plan to
   the Corporation on February 21,2006 to implement proceduresfor developing and implementing policy and
   procedures to ensure that volunteer placements, assignments and pehrmance are properly conducted
   and reviewed in accordance with the program requirements and maintaining sufficient staffing levels to
   fulfill its program responsibilities. The City is working on setting up hinings for the grandparent volunteers
   and the volunteer stations so that both know exactly what should be done with regards to placements,
   assignment plans, performanceevaluations. We will also be setting up a schedule to have the performance
   evaluations for the grandparent volunteers done on an annual basis and to have the volunteer stations
   monitored on an at least quarterly basis so that all are monitored at least once a year. The final plan will be
   submittedfor review by March 10,2006.




                                                               03/07/2006 TUE 16:58          tTX/RX NO 53861
                        Appendix B



Responses of the Corporation for National and Community Sewice
To:            Carol Bates, Acting Inspector General
                                                                                            CORPORATION
From:           arry Floyd, Director Southwest Service Center                               FOR NATIONAL

Date:          February 27,2006

Subject:       Response to OIG Draft Audit Report 06-24, Audit of Corporation for National
               and Community Service Grant Awarded to the City of Kansas City
                                                                                                                          I
The Southwest Service Center in conjunction with the Area Manager and State Program Director
have reviewed the draft audit report of the City of Kansas City, Foster Grandparent Program
number 04SFWM0002. Due to the limited timeframe for response, we have not yet conducted a
comprehensive review, analyzed documentation from the grantee supporting the questioned
costs, nor reviewed the audit work papers. We will respond to all findings and recommendations
when the audit is issued and we have reviewed the findings in detail.

At this time we have only one recommendation, it is on page 26, RE: Findings No. 5, under
Condition, third paragraph. The second sentence states " . . AN volunteers interviewed stated
thut they scwed J ,?roup of children, assigned by volunfeer stution personnel and that some of
rhc ~hildrtwJL'I ~ eilyi t h m did not appear to Have exceptronai or special needs..."
Foster Grandpxents are not trained nor expected to render opinion, clinically or otherwise, as to
whether a child fits the "exceptional or special needs" criteria. However, we agree with the
recommendation that regulation 45 C.F.R. 5 1552.12 be implemented and reinforced as it
requires that the ''Existence of a child's exceptional need shall be verified by an appropriate
professional. .. before a Foster Grandparent is assigned to the child."

The audit also questioned grant costs totaling $14,004. Our preliminary review indicates that the
questioned cost findings are stated accurately

Finally, we would like to note that the grantee has already developed a draft corrective action
plan and is working closely with the Grants and Program Officers to address recommendations
proposed in the draft report.




cc:     Tess Scannell. Director of Senior Corps                                            1999 Bryan Strcct, Sle. 2050
        Kathie Ferguson-Avery, Southwest Area Manager                                      Dallas. Texas 75201
                                                                                           Telephone: 214-880-7050
        Bill Dillon, State Program Director                                                       Fax: 214-880-7074
